Case 2:16-cv-07401-TJH Document 22 Filed 04/10/18 Page 1 of 1 Page ID #:1464

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

J S"6

CIVIL MINUTES - GENERAL

Present: The Honorable

TERRY J. HATTER, JR., UNITED STATES DISTRICT JUDGE
NOT REPORTED
Court Reporter

YOLANDA SKIPPER
Deputy Clerk
Attorneys Present for Plaintiffs:

Attorneys Present for Defendants:

None Present

None Present

Proceedings:

IN CHAMBERS -ORDER AND NOTICE TO ALL PARTIES RE:
2255 Petition to vacate, set aside or correct sentence by a person in Federal custody

The Court having carefully considered the papers and the evidence submitted by the parties, the Court hereby
DENIES the Petitioners 2255 Petition to vacate, set aside or correct sentence by a person in Federal custody.
IT IS SO ORDERED.
cc: counsel of record (or parties)

CV-90 (12/02)

CIVIL MINUTES - GENERAL

Initials of Deputy Clerk YS

